United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

977 F.3d 1022
United States Court of
Appeals, Eleventh Circuit.
UNITED STATES of
America, Plaintiff-Appellee,
v.
Bernandino Gawala BOLATETE,
Defendant-Appellant.
No. 18-14184
|
(September 29, 2020)
Synopsis
Background: Defendant was indicted on
charge of receiving and possessing an
unregistered firearm silencer. The United
States District Court for the Middle District
of Florida, No. 3:17-cr-00240-HES-JBT-1,
Harvey Schlesinger, Senior District Judge,
2018 WL 9339955, denied defendant's
motion to dismiss indictment. Defendant was
convicted of charged offense and sentenced to
60 months' imprisonment, and he appealed.

costs associated with exercise of Second
Amendment rights;
[4] District Court did not commit plain error
by not raising issue that Act's application to
silencers violated Second Amendment;
[5] sufficient evidence supported jury's finding
that defendant was predisposed to buying
unregistered silencer, and thus that he was not
entrapped;
[6] any error arising from application
of sentencing enhancement for possessing
silencer with intent to use it in connection with
another felony offense was harmless; and
[7] sentence was substantively reasonable.
Affirmed.
Procedural Posture(s): Appellate Review;
Pre-Trial Hearing Motion; Sentencing or
Penalty Phase Motion or Objection.
West Headnotes (29)

Holdings: The Court of Appeals held that:

[1]

[1] National Firearms Act does not exceed
taxing powers of Congress;

Powers Reserved to

In federal system, the National
Government possesses only limited
powers; the States and the people
retain the remainder.

[2] Act was not unconstitutional as applied to
defendant;
[3] District Court did not commit plain error by
not raising issue that Act was unconstitutional
because it imposed tax on firearm transfers
that were unrelated to any administrative

States
States

[2]

Commerce
Federal Offenses
and Prosecutions
Criminal Law

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

United States
1

1a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

Internal
Revenue
Constitutional and
statutory provisions

court considers whether on its
face tax operates as a revenue
generating measure and the attendant
regulations are in aid of a revenue
purpose.

United States
Legislative
Authority, Powers, and Functions
Congress does not have a general
police power that would allow it to
punish felonies generally; instead,
every criminal penalty that Congress
enacts must be grounded in one
of its enumerated powers, such
as the power to regulate interstate
commerce or the power to lay and
collect taxes. U.S. Const. art. 1, § 8,
cl. 3.

[6]

Court of Appeals generally reviews a
district court's denial of a motion to
dismiss indictment only for abuse of
discretion.

[7]
[3]

Internal Revenue
destructive devices

[8]

Internal Revenue
taxes and excises

Internal Revenue
Statutes in General

Validity of

In deciding whether a law is
a valid tax measure, court takes
practical approach that does not
depend on how the law is labeled;

Internal Revenue
destructive devices

Firearms and

National Firearms Act, which
regulates
firearms
including
destructive devices and requires
taxation and registration of firearms
by
manufacturers,
possessors,
transferors, dealers, importers, and
sellers does not exceed taxing power
of Congress. 26 U.S.C.A. § 5801 et
seq.

Nature of

Every tax is regulatory to some
extent.

[5]

Review De Novo

Weapons
Violation of other
rights or provisions

1 Cases that cite this headnote
[4]

Criminal Law

When
a
criminal
defendant
challenges the constitutionality of a
statute, the review is de novo.

Firearms and

National Firearms Act, and the
criminal penalty for violating it, are
grounded in Congress' power to tax.
26 U.S.C.A. § 5801 et seq.

Criminal Law
Amendments and
rulings as to indictment or pleas

[9]

Internal Revenue
destructive devices

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Firearms and

2

2a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

Weapons
Violation of other
rights or provisions
National Firearms Act, which
regulated
firearms
including
destructive devices and required
taxation and registration of firearms
by
manufacturers,
possessors,
transferors, dealers, importers, and
sellers was not unconstitutional
as applied to defendant, who
was charged with receiving and
possessing an unregistered firearm
silencer, on ground that Act exceeded
Congress' power to tax; defendant
asked undercover detective to
sell him unregistered silencer and
insisted that there would be no paper
trail, and evidence established that
defendant would not have registered
silencer he bought, even if he could
have.

26 U.S.C.A. § 5861(d).

[10] Constitutional Law
as applied

Invalidity

To bring a successful as-applied
constitutional challenge, a criminal
defendant has to show that law is
unconstitutional on the facts of his
particular case.

[11] Criminal Law
In General;
Necessity of Motion
Court of Appeals reviews only for
plain error a district court's failure to
rule without a motion that a statute is
unconstitutional.

[12] Criminal Law
Necessity of
Objections in General
To prevail under plain error review,
a defendant must show that the
district court made an error, that
the error was plain, and that it
affected his substantial rights; if he
carries that burden, Court of Appeals
has discretion to reverse the district
court's judgment, but only if the
error seriously affects the fairness,
integrity, or public reputation of
judicial proceedings.

[13] Criminal Law
Sufficiency and
Scope of Motion
Court of Appeals would review for
plain error defendant's argument,
on direct appeal of his conviction
for receiving and possessing
an unregistered firearm silencer,
that National Firearms Act was
unconstitutional because it imposed
tax on firearm transfers that were
unrelated to any administrative
costs associated with exercise
of Second Amendment rights,
although defendant contended that
he preserved issue for de novo
review when he argued to district
court in his motion to dismiss
indictment that Act exceeded
Congress' taxing power because it
was not actually a tax, where at
no point in defendant's motion did
he mention Second Amendment or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

Supreme Court's fee jurisprudence
principles. U.S. Const. Amend. 2;
26 U.S.C.A. § 5861(d); Fed. R.
Crim. P. 52(b).

[14] Criminal Law
questions

Constitutional

District court did not commit
plain error by not raising
issue, on defendant's motion to
dismiss indictment charging him
with receiving and possessing
an unregistered firearm silencer,
that National Firearms Act was
unconstitutional because it imposed
tax on firearm transfers that were
unrelated to any administrative costs
associated with exercise of Second
Amendment rights, where Court of
Appeals had not decided whether it
was appropriate to apply Supreme
Court's fee jurisprudence principles
in context of Second Amendment
rights, nor had Supreme Court. U.S.
Const. Amend. 2; 26 U.S.C.A. §
5861(d); Fed. R. Crim. P. 52(b).

Necessity of
[15] Criminal Law
Objections in General
The absence of a decision by either
Court of Appeals or Supreme Court
rules out a holding that the asserted
error was “plain” because there can
be no plain error where there is no
precedent from Court of Appeals or
Supreme Court directly resolving it.
Fed. R. Crim. P. 52(b).

[16] Weapons
bear arms

Violation of right to

Court of Appeals uses two-step
inquiry when deciding a Second
Amendment issue; first, court asks
if the restricted activity is within the
scope of protection of the Second
Amendment in the first place, and
if it is, Court applies an appropriate
form of means-end scrutiny. U.S.
Const. Amend. 2.
1 Cases that cite this headnote
[17] Criminal Law
In General;
Necessity of Motion
District court did not commit
plain error by not bringing up
issue, on defendant's motion to
dismiss indictment charging him
with receiving and possessing an
unregistered firearm silencer, that
National Firearms Act's application
to silencers violated Second
Amendment, where neither Supreme
Court nor Court of Appeals had
ever decided preliminary question of
whether silencers were “Arms” for
Second Amendment purposes. U.S.
Const. Amend. 2; 26 U.S.C.A. §
5861(d); Fed. R. Crim. P. 52(b).
1 Cases that cite this headnote
[18] Criminal Law

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Review De Novo

4

4a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

Criminal Law
Evidence

Construction of

Criminal Law
Inferences or
deductions from evidence
Court of Appeals reviews de novo
the sufficiency of the evidence to
support a conviction, viewing the
evidence in the light most favorable
to the verdict and drawing all
reasonable inferences and credibility
choices in the verdict's favor.

[19] Criminal Law
Entrapment

What Constitutes

Defense
of
entrapment
has
two elements: (1) government
inducement of the crime, and (2) lack
of predisposition on the part of the
defendant.

[20] Criminal Law
Matters of
defense and rebuttal in general
Criminal Law

[22] Criminal Law

Entrapment

Unlike inducement, predisposition,
in context of defense of entrapment,
is a factual question for the jury.

[23] Criminal Law
Previous
innocence or criminal disposition of
accused
Predisposition inquiry with respect
to defense of entrapment is a purely
subjective one which asks the jury
to consider the defendant's readiness
and willingness to engage in the
charged crime absent any contact
with the government's officers or
agents.

Entrapment

Defendant asserting defense of
entrapment bears the initial burden of
production on inducement, which is a
legal question for the court to decide.

[21] Criminal Law
Matters of
defense and rebuttal in general
Criminal Law
general

inducement, the burden shifts to
the government to prove beyond a
reasonable doubt that the defendant
was predisposed to commit the
crime.

Defenses in

If defendant asserting defense
of entrapment meets his burden
by showing some evidence of

[24] Criminal Law
general

Defenses in

Sufficient evidence supported jury's
finding
that
defendant
was
predisposed to buying unregistered
silencer, and thus, that he was
not entrapped; although defendant
did not explicitly accept or reject
undercover detective's first offer to
sell silencer, and later told detective
that he did not need silencer for
mosque shooting, defendant was
first person to bring up silencers,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

and he showed more than once
that he knew a lot about them,
and during his conversations with
detective, defendant was first one to
mention unregistered silencers.
U.S.C.A. § 5861(d).

[25] Criminal Law
Punishment

26

Sentencing and

Any error arising from district court's
application of enhancement for
possessing silencer with intent to use
it in connection with another felony
offense, in sentencing defendant
to 60 months upon his conviction
for receiving and possessing an
unregistered firearm silencer, was
harmless; district court stated that
it would have varied upward from
either defendant's guidelines range of
27 to 33 months or increased range of
41 to 51 months to impose 60-month
sentence.

26 U.S.C.A. § 5861(d);

U.S.S.G. § 2K2.1(b)(6)(B).

[26] Criminal Law

unreasonable sentence when it
(1) fails to afford consideration
to relevant factors that were
due significant weight, (2) gives
significant weight to an improper
or irrelevant factor, or (3) commits
a clear error of judgment in
considering the proper factors.

Sentencing

Court of Appeals reviews the
substantive reasonableness of a
sentence only for abuse of discretion.

[27] Sentencing and
Punishment
Factors or Purposes
in General
District court abuses its discretion
and imposes a substantively

[28] Criminal Law

Sentencing

Sentencing and
Punishment
Manner and effect
of weighing or considering factors
Court of Appeals will vacate
a
sentence
as
substantively
unreasonable only if it is left with
the definite and firm conviction
that the district court committed a
clear error of judgment in weighing
the statutory sentencing factors by
arriving at a sentence that lies outside
the range of reasonable sentences
dictated by the facts of the case.
U.S.C.A. § 3553(a).

18

[29] Sentencing and
Punishment
Age
Sentencing and
Punishment
Physical illness or
disability
Sentencing and
Punishment
Dangerousness
Weapons
Possession, use,
carrying, or transportation
Sentence of 60 months imposed
on
defendant
convicted
of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

6a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

receiving and possessing an
unregistered firearm silencer was not
substantively unreasonable; contrary
to defendant's argument, district
court did not fail to consider
defendant's age of 70 or his failing
health, defendant's statements to
undercover detective, including that
he was planning mass murder at
mosque, and that he had taken
actual step toward committing that
act by scoping out site of attack,
gave court reason to be concerned
about public safety and deterring
defendant, and although sentence
was nearly twice the high end of
unenhanced guidelines range of 27
to 33 months, it was also only half
of the statutory maximum sentence
of 120 months.
3553(a);

18 U.S.C.A. §

26 U.S.C.A. § 5861(d);

U.S.S.G. § 2K2.1(b)(6)(B).

Attorneys and Law Firms
*1026 Germaine Seider, Peter J. Sholl,
U.S. Attorney Service - Middle District of
Florida, U.S. Attorney's Office, Tampa, FL, for
Plaintiff-Appellee.
Lynn Palmer Bailey, Federal Public Defender,
Mark Rosenblum, Maurice C. Grant, II, Federal
Public Defender's Office, Jacksonville, FL,
Rosemary Cakmis, Federal Public Defender's
Office, Orlando, FL, for Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Florida, D.C. Docket
No. 3:17-cr-00240-HES-JBT-1
Before BRANCH, LUCK, and ED CARNES,
Circuit Judges.
Opinion
ED CARNES, Circuit Judge:
At 70 years old and in failing health,
Bernandino Bolatete decided that his last act on
this Earth would be one of hatred and violence.
He made plans to climb to the top of a tower at a
mosque in Florida and shoot innocent Muslims.
He had an arsenal of rifles to carry out the
attack and knew how to use them. Fortunately,
someone overheard Bolatete talking about his
plans and reported him to law enforcement. An
undercover detective gained Bolatete's trust,
confirmed that he planned to attack the mosque,
and then sold him an unregistered firearm
silencer. Because possessing an unregistered
silencer is a federal crime, Bolatete was
arrested, convicted, and sentenced to prison
where he is today.
*1027 The district court rejected Bolatete's
constitutional challenge to the statute making
it a crime to receive or possess an unregistered
firearm silencer. The court sentenced him to
60 months in prison. This is his appeal of his
conviction and sentence.

I. BACKGROUND
A. Facts

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

7a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

In late 2017, the Jacksonville Sheriff's Office
received a tip that Bolatete was planning to
commit a mass shooting at a local mosque. The
person who provided the tip said that Bolatete
had just been given some “bad news” about
the condition of his one remaining kidney and
would have to start dialysis soon. She reported
that Bolatete was going to time the mass murder
for when he otherwise would have had to
start dialysis; apparently, he did not plan on
surviving his crime.
A Sheriff's Office detective with a long
resumé of undercover work was assigned to
investigate. The detective's plan was to take on
an undercover persona as a Muslim-hating gun
enthusiast named “Drew” and gain Bolatete's
trust so he could find out if he was serious about
killing Muslims at the mosque. The detective
introduced himself as Drew at the liquor store
where Bolatete worked, and the two of them
bonded over their “shared” hatred of Muslims
and love of guns.
Less than two weeks after the detective and
Bolatete met, they went to a shooting range
together. The detective drove Bolatete to the
range in a car that had been wired to covertly
record video and sound. Their route took them
by the mosque that Bolatete had planned to
attack, and as they drove by, the detective made
a comment about the mosque. That passing
comment was all it took to get Bolatete to start
sharing his violent plans.
Bolatete pointed out a tower near the mosque
and said that was where he was “planning to
stay” after his kidney doctor told him it was
time to start dialysis. By “stay,” he meant that
he would go up the tower and start “shooting

those Muslims” until the police killed him.
Bolatete said that he wanted to “try a Christian
doing [a] terroristic ... act this time ... to the
Muslims,” because Muslims were “doing it
all the time.” The detective asked Bolatete:
“You['re] just going to climb up in the tower
and—” Bolatete answered that yes, he was just
going to “go up to the tower and start shooting.”
He laughed and asked his new friend: “[I]t will
be great, right?”
Even though Bolatete was laughing, his plan
was no joke. He explained that he had already
gone onto the mosque property to scope out
the tower and make sure he could get in it. He
had learned that the best day to carry out the
attack would be a Friday, when Muslims attend
religious services. And he had an arsenal of five
rifles, including an AR-15 assault rifle, that he
could use to carry out the attack. He told the
detective that his next kidney appointment was
less than a month away. Time was running out.
Over the next ten days, the detective and
Bolatete exchanged text messages and spent
more time together, and Bolatete twice steered
their conversation toward firearm silencers. 1
The first time he mentioned silencers was
while the detective was driving him home
from a second trip to the shooting range
together. The two men were talking about the
availability of automatic weapons in the United
States compared to the Philippines, where
Bolatete *1028 was born, when Bolatete
said, unprompted: “You can even, uh, get the
suppressors there.” The detective had never
mentioned suppressors or silencers (which are
the same thing) when Bolatete brought up the
subject.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

8a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

1

For purposes of the federal statute, a
silencer is “any device for silencing,
muffling, or diminishing the report of a
portable firearm.”
(24); see

18 U.S.C. § 921(a)

26 U.S.C. § 5845(a)(7).

The second time Bolatete brought up silencers
was at the liquor store when the detective
visited him on November 20. As part of his
undercover story, the detective told Bolatete
that he and his boss had done some electrical
work for a Muslim client who had refused to
pay them, costing his boss $30,000. Bolatete
responded that the “only thing to do is, uh,
shoot him somewhere.” He recounted that
there had been “one asshole like that in, um,
in the Philippines,” and he had settled their
differences by shooting the man with a .22
caliber pistol equipped with a silencer. Bolatete
suggested that the detective and his boss could
do something similar to deal with their problem
client. He advised that they should “study [the
client's] movements” and “hit” him in a rough
part of town. He also recommended taking the
client's wallet after the hit so that it looked like
a robbery gone wrong.
Because Bolatete had mentioned silencers
twice, the detective decided to gauge his
interest in buying one. The next time they went
to the shooting range, on November 24, the
detective brought a rifle that had a silencer
attached. His story was that he had borrowed
the rifle and silencer from a friend who was
in financial trouble and needed to sell all of
his guns. He told Bolatete that his friend was
selling the rifle for $300 or $400.
After they shot the rifle together, Bolatete
told the detective that $300 would be a good

price, especially if it included the silencer.
The detective offered to buy the silencer from
his friend and sell it to Bolatete. Bolatete did
not say anything in response to that offer but
he nodded and, according to the detective,
appeared interested. Bolatete also commented
that the silencer was not very silent, that it was
much louder than the one that he had on his .22
caliber pistol in the Philippines, and he added
that it was louder than it should have been
even considering the bigger powder load of a
rifle round. His appraisal was not all criticism,
though. He did offer his view that the silencer
was attached to the rifle very well. Bolatete
knew a thing or two about silencers.
During the drive home, Bolatete called a friend
of his—another gun enthusiast—and spoke
with him in a language that the detective
couldn't understand. Then he told the detective
that according to his friend, $300 for the rifle
was a “giveaway price” and if the silencer
were included it would be even better. But,
Bolatete noted, there was no need for the
silencer because they were not going hunting
(where a silencer would be useful to avoid
scaring off the animals). He also warned the
detective that the police were “very hot” on
silencers.
During the same drive, the detective offered
to help Bolatete with the mosque shooting.
That offer, it seems, went too far. Bolatete
immediately downplayed the seriousness of his
plan, saying that it was just “wishful thinking.”
He refused the detective's offer of assistance,
explaining that the reason he was turning
him down was that the detective was healthy,
young, and had a child. Bolatete then started
talking about his own family. He said that his

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

9a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

eldest son, who had cerebral palsy, had always
wanted to see this country, and he wanted to
bring him to the United States and let him see
it “before I [unintelligible].” 2
2

The word following “before I” is
not audible on the recording. The
detective testified that Bolatete told
him he wanted to bring his son to
the United States “before it happen[s],”
and he reported to his supervisor that
Bolatete said he wanted to bring his son
here “before anything happens.” The
detective understood Bolatete to have
been talking about bringing his son to
this country before he committed the
attack at the mosque.

*1029 After arriving at Bolatete's house, the
two men talked outside the car. Bolatete said
that the detective could use the silencer on the
troublesome Muslim client who had refused to
pay for his electrical work. When the detective
suggested that Bolatete could use the silencer at
the mosque, Bolatete said there was “[n]o need
for a suppressor there” and that he “[didn't]
need the suppressor.” They parted ways without
a goodbye, which made the detective think that
Bolatete no longer trusted him.
The detective feared that he had offered too
much help too fast and had blown his cover as
a result. Frustrated, he called his supervisor. He
told him that Bolatete had “no desire to own a
silencer,” and that the timeline for the mosque
attack had changed because Bolatete wanted
to bring his son to the United States first. The
detective commented that the only angle they
had left was to start sending Bolatete more antiMuslim rhetoric by text message, “since he says

he doesn't need a silencer or a rifle or anything
like that.”
The detective gave up on selling Bolatete a
silencer, but he kept up contact with Bolatete,
hoping to learn more about his plans for mass
murder. Over the next few days, Bolatete texted
the detective twice asking whether he had
bought the rifle from his friend. The detective
said that his friend was asking $300 for the rifle
or $400 for the rifle and silencer, and he was
looking into the licensing rules for the silencer.
On November 27 the detective visited Bolatete
again at the liquor store. He didn't plan to
mention the silencer. And he didn't have to
because Bolatete brought it up, asking the
detective if there was “[a]ny solution” yet to
the problem of the Muslim client who hadn't
paid his bill. When the detective said there
wasn't, Bolatete suggested: “[Y]ou can use the
silencer for that guy.” Then Bolatete asked
about the rifle. The detective said that he was
still researching the registration and licensing
rules for the silencer.
Bolatete volunteered: “If I were you, don't
register the suppressor.” That was the first time
either of them had mentioned an unregistered
silencer. Bolatete warned that if the detective
registered the silencer, the police would be able
to search his house without a warrant at any
time to inspect the silencer. Then he asked
whether the detective's friend had any more
silencers to sell because he was interested in
buying one, but only if it was unregistered.
The detective said that his friend had four
or five more silencers and would not care if
they went unregistered because he needed the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10 10a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

money. Bolatete reiterated that he “[did not]
want to have any record about it.” He told the
detective that when he arrived in the United
States, he had started looking for a silencer
right away because he had owned one in the
Philippines. He found one for sale at a gun store
but was told that he needed a special license
to buy it, and one condition of the license was
that the police could search his house at any
time. That condition was not one Bolatete was
willing to agree to.
After that meeting, the detective and Bolatete
continued to send text messages back and
forth about the unregistered silencer. In one
particularly long text message, Bolatete said
that he was thinking about putting the silencer
on a gun he owned that was also unregistered
because *1030 “it will be difficult to trace
just in case.” He suggested that the right time
to “hit” the (fictional) Muslim client would
be around the Fourth of July or New Year's
because the sound of the suppressed gunshots
would “easily blend with the sound of the
fireworks.” Bolatete warned the detective not
to be seen arguing with the client so that the
detective wouldn't be a “person of interest”
after the “hit.” “Better still,” Bolatete said,
the detective and his boss could just run
“surveillance” on the client to figure out what
places he frequented. Then the detective could
point out the client so Bolatete could “take him
for you guys.” At the end of the text message,
Bolatete asked the detective to delete it “so that
it can't be found in your [cell phone] just in case
investigators will try to ‘connect’ us.”
The detective met Bolatete on December 1 in
the parking lot of a sporting goods store to
sell him the unregistered silencer. After the

detective put the silencer in Bolatete's car,
Bolatete paid him $100, and the two men went
inside the store to shop for ammunition. When
they left the store, they were met by a swarm
of police officers who arrested Bolatete and
pretended to arrest the detective.

B. Procedural History
Bolatete was indicted in December 2017 on
one count of receiving and possessing an
unregistered firearm silencer in violation of
26 U.S.C. § 5861(d) and § 5871. He
filed a motion to dismiss the indictment,
contending that the National Firearms Act
exceeds Congress' power to tax and therefore
violates the Tenth Amendment both facially
and as applied. The district court denied his
motion because his contention was foreclosed
by clear circuit precedent. The case proceeded
to trial, and the jury found Bolatete guilty after
deliberating for less than an hour and a half.
Bolatete's Presentence Investigation Report
stated that he was a 70-year-old lawful
permanent resident of the United States
who immigrated here from the Philippines
in 2009. The PSR noted that he suffers
from high cholesterol, rheumatoid arthritis,
diabetes, macular edema, and hypertension. It
calculated a base offense level of 18 under
U.S.S.G. § 2K2.1(a)(5), and it applied a fourlevel enhancement under § 2K2.1(b)(6)(B)
because Bolatete possessed the silencer with
knowledge, intent, or reason to believe that
it would be used or possessed in connection
with another felony offense. The other felony
offense was the planned assault or murder of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11 11a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

the detective's fictional Muslim client. With
an adjusted offense level of 22 and a criminal
history score of zero, Bolatete's guidelines
range was 41 to 51 months in prison.
Bolatete objected to the 4-level enhancement
under
§ 2K2.1(b)(6)(B), and he and the
government filed sentencing memoranda. The
government asked the court to depart or vary
upward from the guidelines range to the
statutory maximum of ten years in prison
because Bolatete had planned to carry out a
mass shooting at a mosque, had confessed
to committing an act of gun violence in the
Philippines, had encouraged the detective to
shoot a fictional Muslim client over a business
dispute, and had later offered to shoot the client
himself. Bolatete pointed to his age and poor
health in requesting a downward variance to
9 months imprisonment to be followed by his
uncontested removal from the United States.
At sentencing the district court overruled
Bolatete's objection to the 4-level
§
2K2.1(b)(6)(B) enhancement, finding that the
government had proved by a preponderance of
the evidence that Bolatete intended to use the
silencer to assault or kill the detective's fictional
Muslim client. The court varied upward to a
sentence of 60 *1031 months in prison in order
to further the goals of deterrence and protecting
the public. And the court made clear that it
would have imposed the same 60-month prison
sentence even if it had not applied the 4-level
sentence enhancement under
(B).

§ 2K2.1(b)(6)

II. DISCUSSION
Bolatete raises six issues. He contends that:
1) the National Firearms Act, 26 U.S.C. ch.
53, is unconstitutional because it exceeds
Congress' power to tax and therefore violates
the Tenth Amendment; 2) if the Act is a
tax, it is unconstitutional because it taxes
the exercise of Second Amendment rights; 3)
the Act violates the Second Amendment, the
protections of which extend to silencers; 4)
the evidence at trial was insufficient to support
the jury's finding that he was not entrapped;
5) the district court erred by imposing a 4level sentence enhancement under U.S.S.G.
§ 2K2.1(b)(6)(B); and 6) his 60-month sentence
is substantively unreasonable.

A. The Taxing Power Issue
[1]
[2] Bolatete's first contention is that
the National Firearms Act in general, and
26 U.S.C. § 5861(d) in particular, are
unconstitutional both facially and as applied
because they exceed Congress' power to
tax. “In our federal system, the National
Government possesses only limited powers; the
States and the people retain the remainder.”
Bond v. United States, 572 U.S. 844,
854, 134 S.Ct. 2077, 189 L.Ed.2d 1 (2014).
Congress does not have a general police
power that would allow it to “punish felonies
generally.”
Id. (quotation marks omitted).
Instead, every criminal penalty that Congress
enacts must be grounded in one of its
enumerated powers, such as the power to
regulate interstate commerce or the power to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12 12a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

lay and collect taxes.
I, § 8.

Id.; see U.S. Const. Art.

[3] The National Firearms Act, and the
criminal penalty for violating it, are grounded
in Congress' power to tax. See
United
States v. Spoerke, 568 F.3d 1236, 1245 (11th
Cir. 2009). The Act creates a comprehensive
taxation and registration scheme for certain
statutorily defined “firearm[s],” which include
silencers. See
26 U.S.C. § 5845(a). One
part of the Act requires that any person who
transfers a firearm to someone else must pay a
$200 transfer tax and must register the firearm
to the transferee. See 26 U.S.C. §§ 5811(a),
5841. 3 It is the transferor, not the transferee,
who is obligated to pay the tax and to register
the firearm. See id. §§ 5811(b),

5841(b). 4

Section 5861(d), the section that *1032
Bolatete was convicted of violating, prohibits
any person from “receiv[ing] or possess[ing] a
firearm which is not registered to him.” The
maximum penalty for violating any provision
of the Act, including § 5861(d), is ten years
in prison and a $10,000 fine. Id. § 5871.
3

The transfer tax is only $5 for firearms
classified as “any other weapon” under
26 U.S.C. § 5845(e). 26 U.S.C. §
5811(a). A silencer does not fit the
definition of “any other weapon,” so
the $5 rate is irrelevant to Bolatete's asapplied challenge. See
5845(e).

4

26 U.S.C. §

A prospective transferor registers the
silencer and pays the tax by filing an
application with the Bureau of Alcohol,

Tobacco, Firearms, and Explosives
(ATF) before transferring the firearm.
See 26 U.S.C. § 5812(a); 27 C.F.R.
§§ 479.11, 479.84. The transfer tax
is payable through the purchase of a
designated tax stamp. 26 U.S.C. §§
5811(c), 5812(a). The Act says that
the $200 tax stamp must be “affixed to
the original application form,” id. §
5812(a), but in practice, the applicant
sends the $200 payment to the ATF
along with his application and the
ATF affixes the tax stamp after the
application is approved. See 27 C.F.R.
§ 479.84(d); Application for Tax Paid
Transfer and Registration of Firearm,
Bureau of Alcohol, Tobacco, Firearms,
and Explosives, https://www.atf.gov/
firearms/docs/form/form-4application-tax-paidtransfer-andregistration-firearm-atf-form-53204/
download (last visited Sept. 16, 2020).
A copy of the approved application
form is then returned to the transferor
and must be given, along with the
firearm, to the transferee. 27 C.F.R.
§ 479.84(d); Application for Tax Paid
Transfer and Registration of Firearm,
supra. It provides the transferee with
proof that the firearm was properly
registered and the transfer tax was paid.
A person who possesses a firearm must
“retain proof of registration which shall
be made available to any ATF officer
upon request.” 27 C.F.R. § 479.101(e);
accord

26 U.S.C. § 5841(e).

[4] [5] According to Bolatete, the National
Firearms Act is not a tax but instead a public
safety measure thinly disguised as a tax. See

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13 13a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

United States v. Freed, 401 U.S. 601, 603,
609, 91 S.Ct. 1112, 28 L.Ed.2d 356 (1971)
(describing the Act as “a regulatory measure
in the interest of the public safety”). Bolatete
concedes that a law does not stop being a valid
tax measure just because it also serves some
other goal besides raising revenue. “[E]very tax
is regulatory to some extent.” United States v.
Ross, 458 F.2d 1144, 1145 (5th Cir. 1972) 5 ;
see Nat'l Fed'n of Indep. Bus. v. Sebelius
(NFIB), 567 U.S. 519, 567, 132 S.Ct. 2566,
183 L.Ed.2d 450 (2012) (“[T]axes that seek
to influence conduct are nothing new.”). In
deciding whether a law is a valid tax measure
we take a “practical” approach that does not
depend on how the law is labeled. See NFIB,
567 U.S. at 565, 132 S.Ct. 2566. We consider
“whether on its face the tax operates as a
revenue generating measure and the attendant
regulations are in aid of a revenue purpose.”
Ross, 458 F.2d at 1145. Bolatete contends that
the tax does not operate as a revenue generating
measure and the attendant regulations are not in
aid of a revenue purpose.
5

In
Bonner v. City of Prichard, 661
F.2d 1206, 1209 (11th Cir. 1981) (en
banc), we adopted as binding precedent
all decisions of the former Fifth Circuit
issued before October 1, 1981.

He argues that § 5861(d), which is one of
the Act's “attendant regulations,” see Ross, 458
F.2d at 1145, does not aid any revenue-raising
purpose because it punishes the recipient of an
unregistered firearm even though the recipient
has no obligation or opportunity to pay the
transfer tax. He also argues that the Act does
not “look[ ] like a tax,”

at 563, 132 S.Ct. 2566, or operate like one
on its face because: the Department of Justice
enforces the Act, not the Department of the
Treasury or the Internal Revenue Service; the
criminal penalties for violating the Act are
disproportionately severe for a tax; and the
$200 transfer fee has no connection to raising
revenue. Bolatete says that the Act exceeds
Congress' power to tax and for that reason
violates the Tenth Amendment. 6
6

The Tenth Amendment says: “The
powers not delegated to the United
States by the Constitution, nor
prohibited by it to the States, are
reserved to the States respectively, or to
the people.” U.S. Const. Amend. X.

[6] [7] Generally, we review a district court's
denial of a motion to dismiss the indictment
only for abuse of discretion. United States
v. Palomino Garcia, 606 F.3d 1317, 1322
(11th Cir. 2010). “When a defendant challenges
the constitutionality of a statute, however,
the review is de novo.”
United States v.
Ibarguen-Mosquera, 634 F.3d 1370, 1377 n.3
(11th Cir. 2011).
Bolatete's contention runs headlong into two
decisions that bind us. 7 The first decision
*1033 is Ross, 458 F.2d 1144. The defendant
in that case, like Bolatete in this one, was
charged under § 5861(d) for possessing an
unregistered firearm. Id. He possessed two
Molotov cocktails, which are plainly within
the Act's definition of “destructive device[s],”
which in turn is included in the definition of
“firearm” and therefore taxable under the Act. 8

NFIB, 567 U.S.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14 14a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

Id. at 1144–46; see

26 U.S.C. § 5845(a),

(f).
7

The government argues that Bolatete's
contention is also contrary to Supreme
Court precedent. The government
points to Sonzinsky v. United States,
300 U.S. 506, 57 S.Ct. 554, 81 L.Ed.
772 (1937), where the Supreme Court
upheld a related part of the National
Firearms Act, an annual tax on firearms
dealers, as a valid exercise of the taxing
power.

Id. at 513, 57 S.Ct. 554. The

Sonzinsky decision did not decide
the issues before us, however, because
it did not involve the transfer tax and
because the Act was markedly different
in 1937 than it is today. See id. at
512, 57 S.Ct. 554 (“As the conviction
for nonpayment of the [dealer tax] has
alone been sustained, it is unnecessary
to inquire whether the [transfer] tax
levied by section 3 and the regulations
pertaining to it are valid.”); see also
Pub. L. No. 90-618, § 201, 82 Stat.
1213 (1968) (substantially amending
the Act).
8

According to the indictment in the Ross
case, Molotov cocktails are “incendiary
devices ... consisting of a quart glass
bottle ... containing a flammable liquid
and having a cloth wick in the mouth
of [the] bottle.” 458 F.2d at 1144 n.1
(quotation marks omitted).

The defendant in Ross argued that the transfer
tax was unconstitutional as applied to Molotov
cocktails because it was a “prohibitory statute”

that exceeded Congress' power to tax. Ross,
458 F.2d at 1145. Our predecessor Court
rejected that argument, reasoning that
§
5861(d) “is part of the web of regulation aiding
enforcement of the transfer tax provision in
§ 5811.” Id. The Court observed: “Having
required payment of a transfer tax and
registration as an aid in collection of that
tax, Congress under the taxing power may
reasonably impose a penalty on possession of
unregistered weapons.” Id. The penalty that §
5861(d) imposes on those who possess and
receive certain unregistered firearms is a valid
exercise of the taxing power, the Court held,
because that penalty “ultimately discourages
the transferor on whom the tax is levied from
transferring a firearm without paying the tax.”
Id.
The second decision that binds us in this
matter is Spoerke, 568 F.3d 1236. In that
case the defendant was charged with, among
other things, possessing an unregistered pipe
bomb (quite obviously a destructive device)
§ 5861(d). See
id. at
in violation of
1241–42. The defendant facially challenged
the constitutionality of the National Firearms
Act on the ground that it exceeds Congress'
power to tax. Id. at 1245. Relying on Ross,
we held unequivocally that “[t]he National
Firearms Act is facially constitutional” and
that “Congress under the taxing power may
reasonably impose a penalty on possession of
unregistered weapons.” Id. (quotation marks
omitted). The defendant also challenged the
Act as applied to him because “pipe bombs
are unlawful and cannot be taxed.” Id. We
rejected that argument as well, explaining
that “[t]he unlawfulness of an activity does

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15 15a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

not prevent its taxation.”
(quotation marks omitted).

Id. at 1245–46

Bolatete insists, however, that he has a
way around the Spoerke decision. At oral
argument he tried to distinguish it by pointing

[8] Bolatete's arguments are clearly foreclosed out that in Spoerke the defendant created the
by
Spoerke. It was true when that case pipe bomb he was charged with possessing and
was decided, just as it is true now, that the therefore did not “receive” it. 10 That means,
Department of Justice enforces the Act; that
Bolatete said, that the defendant in Spoerke
the maximum penalty for a violation is ten
had no occasion to raise one of the arguments
years in prison; and that the Act imposes
Bolatete raises here: that
§ 5861(d) does
only a $200 tax on firearm transfers. 9 Yet
not aid any revenue-raising purpose because
in Spoerke we upheld *1034 the Act both it punishes the recipient of an unregistered
facially and as applied as an exercise of firearm even though the recipient has no
Congress' taxing power. 568 F.3d at 1245– obligation or opportunity to pay the transfer tax.
46. Under Spoerke we are bound to reach the
same conclusion here.
9

The Bureau of Alcohol, Tobacco,
Firearms, and Explosives, which is
responsible for enforcing the Act,
was transferred from the Department
of the Treasury to the Department
of Justice in January 2003. See
ATF History Timeline, Bureau of
Alcohol, Tobacco, Firearms and
Explosives, https://www.atf.gov/ourhistory/atf-history-timeline (last visited
Sept. 16, 2020). The penalty for
violating the Act has remained
unchanged since 1968. See Gun
Control Act of 1968, Pub. L. No.
90-618, § 201, 82 Stat. 1213, 1234.
And the amount of the transfer tax
has been fixed at $200 since the Act
was first enacted in 1934. See National
Firearms Act, Pub. L. No. 73-474, § 3,
48 Stat. 1236, 1237 (1934). All of those
events preceded

Spoerke, which was

decided in 2009. See

568 F.3d 1236.

10

In his briefs, Bolatete did not try
to distinguish

Spoerke. Instead he

“recogniz[ed]” Spoerke and asked us
to “revisit” it in light of his arguments
on appeal. We cannot do that because
we are bound by
Spoerke under
the prior panel precedent rule. See
United States v. Steele, 147 F.3d
1316, 1317–18 (11th Cir. 1998) (en
banc).
But that's a distinction without a difference.
The defendant in Ross, like the defendant in
Spoerke, was charged under § 5861(d)
for possessing unregistered firearms, not for
receiving them. See Ross, 458 F.2d at 1144. In
upholding the defendant's conviction in Ross,
we did not suggest that the defendant had a
chance to pay the transfer tax or that a chance to
pay it is required for a § 5861(d) conviction
to be valid. See id. at 1144–46. Instead, we held
that § 5861(d) is a valid regulation “aiding
enforcement of the transfer tax provision in §
5811” because it “discourages the transferor

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16 16a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

on whom the tax is levied from transferring a
firearm without paying the tax.” Id. at 1145. In
other words, § 5861(d) aids a revenue-raising
purpose even though it punishes possessors
and transferees who have no obligation or
opportunity to pay the transfer tax themselves.
See id. That holding squarely forecloses
Bolatete's argument.
[9]

[11] [12] Bolatete raises two constitutional
issues for the first time on appeal. We review
only for plain error a district court's failure
to rule without a motion that a statute is

unconstitutional. See *1035
United States
v. Candelario, 240 F.3d 1300, 1306 (11th Cir.
2001). To prevail under plain error review,
Bolatete must show that the district court
made an error, that the error was plain,
[10] Even if Bolatete could somehow and that it affected his substantial rights.

clear the legal hurdles of Ross and Spoerke,
he still could not get over a factual one.
Although Bolatete's taxing power challenge is
both facial and as applied, at oral argument he
tried to distinguish from Spoerke only the
as-applied aspect of his challenge. To bring a
successful as-applied challenge, he would have
to show that the Act is “unconstitutional on the
facts of [his] particular case.” Harris v. Mexican
Specialty Foods, Inc., 564 F.3d 1301, 1308
(11th Cir. 2009) (quotation marks omitted). In
this case, Bolatete asked the detective to sell
him an unregistered silencer and insisted that
there be no paper trail. The evidence establishes
that Bolatete would not have registered the
silencer he bought, even if he could have. As a
result, he cannot defeat the Act's application to
him on the ground that he never had a chance
to register the silencer that he would not have
registered anyway or to pay the transfer tax that
he would not have paid anyway.
Because Bolatete's taxing power challenge is
contrary to our precedent and unsupported by
the facts of this case, we reject it.

B. The Unpreserved Constitutional Challenges

United States v. Rodriguez, 398 F.3d 1291,
1298 (11th Cir. 2005). If he carries that
burden, we have discretion to reverse the
district court's judgment, but only if “the
error seriously affects the fairness, integrity,
or public reputation of judicial proceedings.”
Id. (quotation marks omitted).

1. The “Fee Jurisprudence” Issue
The first unpreserved constitutional issue
comes in Bolatete's challenge to the National
Firearms Act based on the Supreme Court's
“fee jurisprudence” cases. In a pair of decisions
in the 1940s, the Supreme Court held that the
government “may not impose a charge for the
enjoyment of a right granted by the federal
constitution,” Murdock v. Pennsylvania, 319
U.S. 105, 113, 63 S.Ct. 870, 87 L.Ed. 1292
(1943), although it may collect a fee to
defray administrative costs associated with
the exercise of a constitutional right, Cox
v. New Hampshire, 312 U.S. 569, 576–
77, 61 S.Ct. 762, 85 L.Ed. 1049 (1941).
Those principles are most often applied in
the First Amendment context. See, e.g., Fly
Fish, Inc. v. City of Cocoa Beach, 337 F.3d
1301, 1314–15 (11th Cir. 2003) (holding

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17 17a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

that “a licensing fee on adult entertainment
establishments is controlled by

Cox and

Murdock and must be reasonably related
to recouping the costs of administering the
licensing program”). Bolatete argues that we
should apply the principles of those two
administrative fee decisions to the Second
Amendment as well. If we do, he says,
we will have to hold the National Firearms
Act unconstitutional because it imposes a
tax on firearm transfers that is unrelated to
any administrative costs associated with the
exercise of Second Amendment rights.
[13] Bolatete contends that he preserved this
issue for de novo review here when he argued to
the district court that the Act exceeds Congress'
taxing power because it is not actually a
tax; his theory is that argument implicitly
“encompasse[d] his alternative argument ... that
even if the [Act] is a tax, it is an unconstitutional
tax.” But constitutional challenges are not allencompassing, they are not interchangeable,
and one does not serve as a placeholder for
others. Attacking a statute on one ground in the
district court does not entitle a litigant to de
novo review of an attack on another ground in
a court of appeals.
At no point in his motion to dismiss the
indictment did Bolatete mention

Bolatete's motion to dismiss did not bring that
issue to the attention of the district court and
provide it “with an opportunity to avoid or
correct any error” that it might have made in
United States v. Turner, 474
that respect.
F.3d 1265, 1275 (11th Cir. 2007); see Fed. R.
Crim. P. 52(b) (stating that plain error review
applies to errors that were “not brought to the
court's attention”). Because Bolatete did not
preserve the issue, we review only under the
plain error rule.
[14] [15] Bolatete's contention can't meet the
strictures of plain error review. Our Court
has not decided whether it is appropriate to
apply the fee jurisprudence of

Murdock and

Cox in the context of Second Amendment
rights. Nor has the *1036 Supreme Court. The
absence of a decision by either Court rules out
a holding that the asserted error was “plain”
because “there can be no plain error where there
is no precedent from the Supreme Court or this
Court directly resolving it.” United States v.
Lange, 862 F.3d 1290, 1296 (11th Cir. 2017)
(quoting United States v. Lejarde-Rada, 319
F.3d 1288, 1291 (11th Cir. 2003)). As a result,
Bolatete cannot establish that the district court
committed plain error by not bringing up this
issue on its own and ruling in his favor on it.

Murdock,

Cox, the Second Amendment, or the
Supreme Court's fee jurisprudence principles.
His contention in the district court was that the
Act is not a tax but actually a regulatory law
disguised as a tax. His contention in this Court
is that if the Act is a tax, it is an unconstitutional
tax because it imposes impermissible fees on
the exercise of Second Amendment rights.

2. The Second Amendment
and Silencers Issue
[16] The second constitutional issue Bolatete
offers up for the first time in this appeal
is his claim that the National Firearms Act's
application to silencers violates the Second
Amendment. We use a two-step inquiry when

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18 18a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

deciding a Second Amendment issue. United
States v. Focia, 869 F.3d 1269, 1285 (11th Cir.
2017). First, we ask if the restricted activity is
within the scope of protection of the Second
Amendment in the first place. Id. If it is,
we apply “an appropriate form of means-end
scrutiny.” Id.
The Supreme Court has held that the Second
Amendment “does not protect those weapons
not typically possessed by law-abiding citizens
for lawful purposes.” District of Columbia
v. Heller, 554 U.S. 570, 625, 128 S.Ct. 2783,
171 L.Ed.2d 637 (2008). Bolatete asserts that
silencers are entitled to Second Amendment
protection because they are typically possessed
by law-abiding citizens for lawful purposes. He
cites a slew of statistics in support of that point.
Then he argues that under any level of meansend scrutiny, the Act's restrictions on silencers
violate the Second Amendment.

C. The Entrapment Defense
[18] Bolatete also contends that the evidence
was insufficient to support the jury's finding
that he was not entrapped. “We review de novo
the sufficiency of the evidence to support a
conviction, viewing the evidence in the light
most favorable to the verdict and drawing all
reasonable inferences and credibility choices in
the verdict's favor.” United States v. Deason,
965 F.3d 1252, 1262 (11th Cir. 2020) (quotation
marks omitted).

[19]
[20]
[21]
[22] The defense of
entrapment has two elements: “(1) government
inducement of the crime; and (2) lack of
predisposition on the part of the defendant.”
United States v. Sistrunk, 622 F.3d 1328, 1333
(11th Cir. 2010) (quotation marks omitted). The
defendant bears the initial burden of production
on inducement, which is a legal question for
[17] Once again, the strictures of plain error the court to decide. Id. at 1332–33; United
review defeat his belated contention. See States v. Ryan, 289 F.3d 1339, 1343–44 (11th
Lange, 862 F.3d at 1296. Neither this Court Cir. 2002). If the defendant meets his burden
nor the Supreme Court has ever held that by showing “some evidence” of inducement,
silencers are “typically possessed by law- the burden shifts to the government to prove
abiding citizens for lawful purposes.” Heller, beyond a reasonable doubt that the defendant
554 U.S. at 625, 128 S.Ct. 2783. In fact, was predisposed to commit the crime. See
neither Court has ever decided the preliminary Ryan, 289 F.3d at 1343. Unlike inducement,
*1037 predisposition is a factual question for
question of whether silencers are “Arms” for
Second Amendment purposes. U.S. Const. the jury. Id. at 1344.
Amend. II (establishing the right to keep
[23] The inducement element of the
and bear “Arms”). Because there is no onpoint precedent of the Supreme Court or this entrapment defense was not disputed at trial:
Court supporting Bolatete's belatedly asserted the government agreed with Bolatete that the
position, the district court's not raising the issue jury should be instructed on entrapment, and it
on its own and striking down the statute cannot was. Because the defense was submitted to and
rejected by the jury on the predisposition issue,
be plain error.
“our review is limited to deciding whether the
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19 19a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

evidence was sufficient for a reasonable jury
to conclude that the defendant was predisposed
to take part in the illicit transaction.” United
States v. Brown, 43 F.3d 618, 622 (11th Cir.
1995). “[T]he predisposition inquiry is a purely
subjective one which asks the jury to consider
the defendant's readiness and willingness to
engage in the charged crime absent any contact
with the government's officers or agents.” Id. at
624.

During the investigation, Bolatete was the first
person to bring up silencers, and he showed
more than once that he knew a lot about them.
He told the detective that he had owned a
silencer in the Philippines and had used it to
shoot someone with whom he had a dispute.
When Bolatete arrived in the United States, he
had immediately started looking for a silencer.

During his conversations with the detective,
[24] Bolatete argues that no reasonable jury Bolatete was the first one to mention
could have found, as the one in this case did, an unregistered silencer. That fact matters.
that he was predisposed to buy an unregistered Owning a silencer generally is not a crime,
silencer. He focuses on his initial refusal to but owning an unregistered silencer is. It was
buy a silencer. When the detective first offered Bolatete who suggested out of the blue that the
to sell one, Bolatete did not explicitly accept detective should not register the silencer he was
or reject the offer but instead criticized the buying from the friend. And it was Bolatete
silencer they were test firing. Then in the car he who said, without being prompted, that he too
said that there was “no need” for the detective wanted to buy a silencer from the detective's
to buy a silencer with the rifle because they friend if, but only if, it was unregistered. He
were not going hunting, and he warned that the said that he didn't buy a silencer when he
police were “very hot” on silencers. After the first came to the United States because he
car ride Bolatete told the detective not once thought that registering it would give the police
but twice that he did not need a silencer for authority to search his home at will and without
the mosque shooting. The detective clearly got a warrant.
the message. He called his supervisor afterward
and reported that Bolatete had “no desire to Based on all of the evidence, a reasonable jury
own a silencer” and “sa[id] he doesn't need a could have found, as the one in this case did,
silencer or a rifle or anything like that.”
that Bolatete was ready and willing to buy an
unregistered silencer “absent any contact with
Those facts are favorable to Bolatete. So much the government's officers or agents.” Brown, 43
so that if he had continued with that attitude F.3d at 624.
and conduct, Bolatete could not have been
charged, much less convicted, for receiving
and possessing an unregistered silencer. But
D. The Sentencing Issues
there was other evidence, enough of it that
a reasonable jury could find that Bolatete
[25] Bolatete raises two issues involving his
was predisposed to receive and possess an sentence. First, he contends that the district
unregistered silencer.
court erred by imposing an enhancement under
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20 20a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

*1038 U.S.S.G. § 2K2.1(b)(6)(B) after
finding that he possessed the silencer with
intent to use it in connection with another
felony offense. The effect of that enhancement
was to increase the guidelines range from 27
to 33 months in prison up to a range of 41 to
51 months. We need not decide whether that
enhancement was properly applied because the
court stated that it did not really matter because
the court would have varied upward from either
range to impose a 60-month sentence. Under
the Keene rule, as long as Bolatete's sentence
would have been substantively reasonable
without the enhancement, a question we will
address momentarily, any error the court might
have made in imposing the enhancement was
harmless. See United States v. Keene, 470
F.3d 1347, 1349 (11th Cir. 2006); see also
United States v. McLellan, 958 F.3d 1110, 1116

marks omitted). We will vacate a sentence
as substantively unreasonable only if we “are
left with the definite and firm conviction that
the district court committed a clear error of
judgment in weighing the § 3553(a) factors by
arriving at a sentence that lies outside the range
of reasonable sentences dictated by the facts
of the case.”
omitted).

Id. at 1190 (quotation marks

Bolatete argues that the court failed to consider
two factors that it should have: his age and
failing health. And, he asserts, it committed
a clear error of judgment by overemphasizing
the deterrence and protection of the public
factors. Finally, he argues that the degree of the
court's variance from the guidelines range was
excessive.

[29] The district court didn't fail to consider
Bolatete's age and health. The court expressly
stated that it had taken into account his age
and health, which is why it did not grant the
government's request for a statutory maximum
sentence. See Doc. 93 at 15 (“I've taken
[26] [27] [28] Second, Bolatete contends into consideration the Defendant's age, the
that his sentence is substantively unreasonable. Defendant's health. And I think that ten years
We review the substantive reasonableness of a was too much.”). As for the weight it gave to
sentence only for abuse of discretion. Gall deterrence and protection of the public, that
v. United States, 552 U.S. 38, 46, 128 S.Ct. was a matter within the court's discretion. See
586, 169 L.Ed.2d 445 (2007). A district United States v. Overstreet, 713 F.3d 627, 638
court abuses its discretion and imposes a (11th Cir. 2013); see also United States v.
substantively unreasonable sentence when it Gomez, 955 F.3d 1250, 1257 (11th Cir. 2020)
“(1) fails to afford consideration to relevant (“In fashioning a sentence, the district court
factors that were due significant weight, (2) enjoys discretion to give greater weight to one
gives significant weight to an improper or or more factors than to the others.”); United
irrelevant factor, or (3) commits a clear States v. Goldman, 953 F.3d 1213, 1222 (11th
error of judgment in considering the proper Cir. 2020) (“When it comes to weighing the §
factors.” United States v. Irey, 612 F.3d 1160, 3553(a) factors, the district court enjoys great
1189 (11th Cir. 2010) (en banc) (quotation discretion.”). We review that part of the court's
(11th Cir. 2020); United States v. McNair,
605 F.3d 1152, 1230 (11th Cir. 2010); United
States v. Lozano, 490 F.3d 1317, 1324 (11th Cir.
2007).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21 21a

United States v. Bolatete, 977 F.3d 1022 (2020)
28 Fla. L. Weekly Fed. C 1931

reasoning only to determine whether the court
“committed a clear error of judgment,”
612 F.3d at 1190, and it did not.

Irey,

The court based the 60-month sentence on
“what went on between [Bolatete] and the
undercover officer,” and those goings-on gave
the court plenty of reasons to be concerned
about public safety and deterring Bolatete and
others like him from committing future crimes.
Bolatete told *1039 the detective he was
planning a mass murder, and related how he
had taken an actual step toward committing
that act by scoping out the site of the attack;
he volunteered that he had shot someone in
the Philippines over a dispute; he offered to
assault or murder with a firearm the detective's
fictional Muslim client; and at the shooting
range he showed the detective that he knew
how to use a firearm.
Finally, the extent of the variance imposed
by the district court was reasonable even
without considering the
§ 2K2.1(b)(6)(B)
enhancement and higher guidelines range that
came from it. Without the enhancement,
Bolatete's guidelines range would have been
27 to 33 months in prison. The sentence
the court actually imposed was 60 months in
prison, nearly twice 33 months, which was
the high end of the unenhanced guidelines
range. But it was also only half of the statutory
maximum sentence of 120 months. See 26
U.S.C. § 5871; see also United States v.
End of Document

Gonzalez, 550 F.3d 1319, 1324 (11th Cir. 2008)
(holding that a sentence that is well below
the statutory maximum is a factor indicating
it is not unreasonably long). It is true that “a
major variance does require a more significant
justification than a minor one.” Irey, 612
F.3d at 1196. But, even assuming the variance
from 33 months to 60 months was “a major
variance,” the district court had plenty of
justification here.
For all of those reasons, a 60-month sentence
is reasonable in light of the need to protect the
public and to deter Bolatete from committing
future crimes. Given the sentencing judge's
statement that he would have imposed the
same sentence anyway, the issue involving
the

§ 2K2.1(b)(6)(B) enhancement is moot

under the Keene rule. The upward variance
sentence is not substantively unreasonable even
considering the lower guidelines range that
would have applied but for the enhancement.

III. CONCLUSION
Bolatete's conviction
AFFIRMED.

and

sentence

are

All Citations
977 F.3d 1022, 28 Fla. L. Weekly Fed. C 1931

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

22 22a

